                     UNITED STATES DEPARTMENT OF EDUCATION
                                          OFFICE OF INSPECTOR GENERAL

                                                      Information Technology Audits and Computer Crime Investigations


FINAL MANAGEMENT INFORMATION REPORT

DATE:           September 30, 2013

TO:            James W. Runcie
               Chief Operating Officer
               Federal Student Aid

FROM:          Charles E. Coe, Jr. //s//
               Assistant Inspector General
               Information Technology Audits and Computer Crime Investigations

SUBJECT: Final Management Information Report
         PIN Security Vulnerabilities
         Control No. ED-OIG/X21L0002 (12-110380)

The purpose of this Management Information Report is to inform Federal Student Aid (FSA) of
our concerns about security vulnerabilities associated with the Personal Identification Number
(PIN) Registration System (PIN system) that the Office of Inspector General (OIG) has
identified through various investigations and to make recommendations and suggestions for
addressing these vulnerabilities.

In preparing this report, the OIG reviewed FSA’s response to the recommendation in the OIG
Investigative Program Advisory Report (IPAR) Distance Education Fraud Rings
(L42L0001)(September 26, 2011) regarding the PIN system.1 We also reviewed an FSA
PowerPoint outlining a general plan to replace the PIN system, although it did not identify any
identity verification and electronic authentication controls to address security vulnerabilities.2
This Management Information Report recommends changes to the current PIN system and
recommends controls FSA should incorporate into the replacement system to address PIN
recovery mechanism vulnerabilities. This report also provides suggestions to limit the risks
associated with students using third parties in the student financial assistance process.

The OIG learned from FSA’s September 16, 2013, response to our draft of this report that FSA is
in the process of re-engineering and replacing the PIN system with the Non-privileged Access
1
  The Distance Education Fraud Rings IPAR alerted FSA and the Office of Postsecondary Education of the OIG’s
findings from investigations of fraud involving distance education programs and made recommendations to mitigate
the risk of fraud in such programs. The IPAR recommended that the Department implement controls in the PIN
delivery system to identify and prevent the issuance of multiple PINs to the same email address without
confirmation of identity.
2
  Identity verification (also known as identity “proofing”) is when a person’s identity is verified for the purpose of
issuing information system credentials. Electronic authentication is the process of establishing confidence in the
user identity through the use of information system credentials.




                      The Department of Education's mission is to promote student achievement and preparation
                      for global competitiveness by fostering educational excellence and ensuring equal access.
Final Management Information Report
ED-OIG/X21L0002                                                                   Page |2

System (NPAS), which FSA stated will solve the problems that we have identified in our report
and will provide additional security improvements. FSA has not provided the OIG with any
supporting documentation related to NPAS beyond what was explained in FSA’s response to our
draft report; nor has it finalized the contract for the development of NPAS. The OIG has not
validated FSA’s plans for NPAS.

In addition, FSA did not agree with our suggestion to enable students to permit companies
providing loan-related services read-only access to relevant areas of their accounts that do not
contain sensitive personal information. FSA stated that the deployment of the MyStudentData
Download permits students to download a file that includes their loan and grant information and
provide that to third parties if they choose. However, we do not know whether MyStudentData
Download will reduce the incidence of PIN sharing in light of its limitations, but we believe that
allowing third parties limited, read-only access to student accounts would reduce the problem of
PIN sharing and unfettered third party access to personal data.

FSA did not agree with our suggestion to consider creating preparer-specific access accounts that
would allow a student to authorize a preparer to access and modify certain sections of the
FAFSA because it considers such access to an applicant’s file/data would compromise the
integrity of the Title IV student aid application process. According to FSA, the extensive
“smart-logic” of the FAFSA on the Web product maintains the applicant’s control of their
personal data and FAFSA submissions, and MyStudentData Download provides sufficient third
party access needed for counseling and other advisory activities. We do not believe that
MyStudentData Download will reduce this problem because it does not provide data that assists
third parties who help students complete their applications. In addition, the OIG does not know
how “smart logic,” in which FAFSA on the Web skips over questions that do not apply to the
student or prompts the student for customized follow-up questions, will prevent a student who
has already chosen to use a preparer from sharing their PIN with the preparer or allowing the
preparer to manage the student’s account.

                                        BACKGROUND

Personal Identification Number
The FSA PIN is a four-digit number that is used in combination with the user’s Social Security
number (SSN), name, and date of birth (DOB). The PIN serves as an electronic signature and
provides access to sensitive personal records on FSA Web sites such as fafsa.ed.gov and
pin.ed.gov. The PIN allows students and their parents the ability to manage their FSA accounts,
manage their Free Application for Federal Student Aid (FAFSA), and electronically sign the
FAFSA and other related documents. FSA requires each person accessing these sites to apply
for his or her own PIN. FSA is responsible for securing and maintaining the PIN and FAFSA
Web sites, applications, and transactions.

Sensitive Personal Information Stored in FSA Documents and Web Sites
As part of the process of applying for a PIN or completing the FAFSA, users provide personally
identifiable and financial information. The PIN application collects and contains sensitive
personal information including name, SSN, DOB, email address, physical address, challenge
question, and challenge answer.
Final Management Information Report
ED-OIG/X21L0002                                                                                          Page |3


The Student Aid Report, which a user may access using a PIN, contains sensitive personal
information that was provided on the FAFSA such as name, SSN, DOB, email address,
permanent address, sensitive financial and income information, marital status, high school,
choice of post-secondary school, personal identifiers for parents and step-parents, and financial
information and marital status for parents and step-parents.

During a person’s FAFSA and PIN application process, (b)(7)(E)
(b)(7)(E)                                                          The Central Processing
System selects certain FAFSA applicants who must verify their identity and certify that they
will use their financial aid for educational purposes.4 (b)(7)(E)
(b)(7)(E)
FSA’s Plans for the PIN Replacement System
In response to the OIG’s Distance Education Fraud Rings IPAR, FSA documented PIN (b)(7)(E)
vulnerabilities in a PowerPoint entitled, “Shared Use of the PIN,” dated June 21, 2012.
(b)(7)(E)



In April 2013, the OIG requested that the FSA Information System Security Officer provide us
with an update on FSA’s planned electronic verification and identity verification controls to
address vulnerabilities identified in the OIG’s Distance Education Fraud Rings IPAR and FSA’s
PowerPoint on “Shared Use of the PIN.”

The FSA Information System Security Officer stated that FSA has been researching an internally
developed solution for the PIN replacement system and was planning to create a single sign-on
solution for all FSA Web sites.5 FSA provided us a PowerPoint regarding the plans for the PIN
replacement system.6 The PowerPoint stated that the replacement system will help modernize
the process of assigning a PIN to eligible non-privileged users (borrowers), streamline
authentication for the systems that non-privileged users access, and decrease the security and
compliance risks associated with using personally identifiable information for access to FSA
systems. However, the PowerPoint did not describe specific identity verification or electronic
authentication controls for non-privileged user access to FSA systems.

We last requested specific information on the planned controls FSA will include in the PIN
replacement system in May 2013, but FSA did not provide us this information at that time or
since then. In its response to our draft report, FSA described how the planned NPAS system will

3
  The Central Processing System is the automated system that processes all applications for Federal student aid,

calculates financial aid eligibility, and notifies students and educational institutions of the results of the eligibility 

calculation. 

4
  The student accomplishes this verification by presenting identification to a notary public or school official and

signing an Identity and Statement of Education Purpose. 

5
  A single sign-on will allow users to access all FSA websites with one user ID and password. 

6
  The PowerPoint is entitled, “PIN Re-engineering and Replacement (Enterprise Identity Management Services 

(EIMS) Phase 2).”

Final Management Information Report
ED-OIG/X21L0002                                                                                Page |4

address our recommendations. We reviewed the explanation FSA included in its response to our
draft report, but have not received supporting documentation related to the plan and FSA has not
yet finalized a contract for the development of the system.

                       PIN RECOVERY MECHANISM NOT ADEQUATE

A March 2004 OIG audit of the Implementation of Electronic Signatures for Select Federal
Student Aid Transactions (ED-OIG A11D0002) (b)(7)(E)
                                                                                  Since this audit
was issued, the OIG has investigated several cases of unauthorized access to sensitive personal
information contained in the PIN system and found that vulnerabilities continue to exist in the
PIN system.

(b)(7)(E)




Guidance and Best Practices on Authentication and Password Management
Since 2001, the Federal government and financial institutions have issued the following guidance
and best practices on authentication and password management:

    	 If the user does not supply challenge questions but rather selects questions from a list
       provided by the registration site, the user should select from a set of at least five
       questions and be required to answer three questions to authenticate.8
    	 Sophisticated challenge questions provide better security. Examples include answering
       questions that require specific user knowledge (such as the exact amount of the user’s
       monthly mortgage payment, selecting a familiar address from a list of addresses, or
       identifying a user-selected image from several images).9
    	 Adding a “Last Login” feature to display a user’s last login and number of failed login
       attempts each time they successfully log in; if the last login date and time displayed does
       not coincide with the date and time that the user last logged into his/her account, the user
       will be alerted to a possible compromise of his or her PIN.10



7
  The PIN account includes information such as the account holder’s email address, phone number, and mailing

address.

8
  National Institute of Standards and Technology (NIST), Special Publication (SP) 800-63-1, “Electronic 

Authentication Guideline,” (Dec. 2011). 

9
  FIL-50-2011 and Federal Financial Institutions Examination Council, “Supplement to Authentication in an Internet 

Banking Environment,” (October 2005).

10
   National Institute of Standards and Technology, Special Publication 800-63-1. 

Final Management Information Report
ED-OIG/X21L0002                                                                               Page |5

     	 Using “out-of-band authentication,” which is a process to authenticate the identity of the
        person originating a transaction through a channel different from the one that person used
        to initiate the transaction. Methods of out-of-band authentication include sending the
        user an email or text message that has information they must use to log in.11

(b)(7)(E)

PIN Recovery Mechanism Can Be Exploited
(b)(7)(E)




(b)(7)(E)



(b)(7)(E)

                                                                             The challenge
questions range in distinctiveness and in how easy or difficult the answers would be for an
unauthorized user to guess. The three most popular challenge questions are listed in the table
below.

Table: Three Most Popular PIN Challenge Questions
     PIN Challenge Question        Percentage of People Choosing This Question
What is your mother’s maiden name?                     30%
What city were you born in?                            29%
What is your favorite color?                           13%

Unauthorized User Can (b)(7)(E)
The OIG is investigating a case where an unauthorized user gained control of another user’s PIN
(b)(7)(E)


(b)(7)(E)


11
  Federal Financial Institutions Examination Council, “Supplement to Authentication in an Internet Banking
Environment,” (October 2005).
Final Management Information Report
ED-OIG/X21L0002                                                                   Page |6


Impact
(b)(7)(E)




After obtaining a person’s PIN, an unauthorized user can view or change the owner’s personal
information on the PIN Web site. In addition, an unauthorized user can use the PIN on the
FAFSA Web site to view the student’s sensitive personal information contained in the Student
Aid Report or to submit a new (b)(7)(E)

Unauthorized access may leave the PIN owner susceptible to loss of financial aid, unwanted
contact, potential financial harm due to the disclosure of sensitive information, or other harmful
activities.

                                    RECOMMENDATIONS

The OIG recommends that FSA implement the following improvements to the PIN recovery
mechanism to ensure personal information stored on FSA Web sites is adequately protected:
   (b)(7)(E)




FSA Response
In response to our recommendations, FSA stated:

   (b)(7)(E)
Final Management Information Report
ED-OIG/X21L0002                                                                                Page |7

     (b)(7)(E)




     5. FSA will research and consider the OIG-provided options for (b)(7)(E)

OIG Response
It appears that FSA’s planned actions for recommendations 1, 2, 3, and 5 will address the
vulnerabilities identified in this report. We found FSA’s response to recommendation 4 partially
non-responsive because it only addresses new accounts and not re-enabled accounts. (b)(7)(E)
(b)(7)(E)

During the course of our review, we requested specific information on the controls planned for
the PIN replacement system, which we noted in the Draft Management Information Report
provided to FSA on August 27, 2013. Because we just learned about NPAS in FSA’s September
16, 2013, response to our draft report and FSA did not provide supporting documentation beyond
what was explained in its response to our draft report, we have not validated FSA’s plan for
NPAS implementation.

              COMPANIES THAT REQUIRE PINs TO ACCESS FSA SYSTEMS

An OIG investigation found that students sharing their PINs with an Internet-based company
providing loan-related services to the students provided an opportunity for bad actors at the
company to change and misuse the students’ personal data. As a result of this investigation, the
OIG researched this and other Internet-based companies that log into FSA systems using
students’ PINs. We found that students using the services of these companies type their PIN into
the company’s Web site so the company can obtain information on the student’s behalf.12 Using
this data, companies may help students understand and manage debt and provide information and
assistance about loan repayment or consolidation options. The OIG is reporting our research
regarding these companies to inform you of additional facts to consider when establishing and
implementing requirements for the single sign-on solution for FSA Web sites.

FSA’s Web site states, “Your PIN is used to sign legally binding documents electronically. It
has the same legal status as a written signature. Don’t give your PIN to anyone—not even to
someone helping you fill out the FAFSA.” The PIN Web site states, “If you receive a PIN, you

12
  In October 2012, the White House and the Department hosted an “Education Datapalooza” that included a
discussion of the “MyData Initiative,” a collaboration between the Department and software developers to create a
simple mechanism for students to download their educational data, such as FAFSA data, to a provider’s Web site.
See FSA’s “MyData Initiative” Web site.
Final Management Information Report
ED-OIG/X21L0002                                                                   Page |8

agree not to share it with anyone. Your PIN serves as your electronic signature and provides
access to your personal records, so you should never give your PIN to anyone, including
commercial services that offer to help you complete your FAFSA. Be sure to keep your PIN in a
safe place.”

Although these Web sites state that the PIN should not be given to “anyone,” it is possible that
users may not consider the prohibition against sharing a PIN to encompass when a student inputs
the PIN into a company’s Web site so that it can retrieve data for the student. Given the
Administration’s efforts to help Americans manage their student loan debt, FSA may consider
this type of service to be potentially beneficial to students; however, as mentioned above, sharing
the PIN presents a possibility that the student will be exploited.

The OIG suggests that FSA consider developing a capability to enable students to permit
companies providing loan-related services read-only access to relevant areas of their accounts
that do not contain sensitive personal information. This would allow a student to grant these
companies access to the student’s loan-related information without the risk that a bad actor at the
company could alter the student’s record or obtain the student’s sensitive personal information.

FSA Response
FSA did not agree with the OIG’s suggestion but said that MyStudentData Download meets the
OIG’s objectives for this suggestion. The deployment of MyStudentData Download in
November 2012 and April 2013 permits students to download a file that includes loan and grant
information and provide that to third parties if they choose. FSA stated that it believes there is
no reason to allow any party, other than the student, to have direct access (read-only or
otherwise) to the student’s FSA information.

OIG Response
MyStudentData Download only provides a snapshot at a given point in time versus the constant,
real-time access that third parties have when students provide them their PINs. We do not know
whether MyStudentData will reduce the incidence of PIN sharing in light of its limitations, but
we believe that allowing third parties limited, read-only access to student accounts would reduce
the problem of PIN sharing and unfettered third party access to personal data.

                    FAFSA PREPARERS MANAGING STUDENT PINs

The OIG previously reported in the Distance Education Fraud Rings IPAR that the Department
does not verify that the user submitting a PIN request is the actual holder of the SSN. The IPAR
also noted that single email addresses were used to receive and manage PIN accounts for
sometimes hundreds of individuals. In response to these findings, FSA analyzed PIN security
vulnerabilities and noted that the PIN is prone to abuse by third parties supposedly operating on
behalf of financial aid recipients.

One such type of third party is FAFSA preparers. The OIG has found that between school years
2008-2009 and 2011-2012, four percent of FAFSA applicants listed a preparer on their FAFSAs.
FAFSA applicants are not required to pay a fee to apply for Federal student aid. However, the
Higher Education Act of 1965, as amended (HEA), authorizes an applicant for Federal student
Final Management Information Report
ED-OIG/X21L0002                                                                                  Page |9

aid to use a paid preparer for consultative or preparation services for completing the FAFSA.
Only a preparer who is paid a fee is subject to the HEA’s requirements; others who assist an
applicant without charging a fee (e.g., guidance counselor, teacher, etc.) are not “preparers”
within the meaning of the HEA. Section 483(d)(2) of the HEA provides that when a preparer
submits a FAFSA to the Department, the preparer must include on the FAFSA their name,
address or employer’s address, SSN or Employer Identification Number (EIN), and
organizational affiliation.

During an OIG proactive investigative project, we reviewed 6 preparer organizations that helped
at least 435 students apply to college, file their FAFSAs, and manage their student loans. The
OIG found these student PIN accounts were managed using an email address owned by the
preparer organization and (b)(7)(E)



The preparer organizations’ respective Web sites indicated that, for a fee, they provide services
such as applying for scholarships and grants, obtaining PINs, completing the FAFSA, managing
student loans, and completing university-specific financial paperwork.13

The OIG noted the following for the 435 applicants:

     	 86 percent of the FAFSA or PIN applications were submitted from the same Internet
        Protocol address as that of the preparer organization.
      80 percent of PIN applications showed the same PIN challenge question and 78 percent
        chose the same challenge answer or established a challenge answer of: (b)(7)(E)

     	 99 percent of the FAFSA applicants associated with one particular preparer organization
        listed the preparer organization’s email address as the student’s personal email address.
        The majority of applicants associated with the other preparer organizations listed what
        appeared to be the student’s personal email address or did not list any email address on
        the FAFSA.
     	 97 percent of the FAFSA applications did not list the preparer’s name, EIN, or SSN. If
        preparer organizations were paid for their services, those omissions violated the HEA.

Thus, preparer organizations may be submitting applications on behalf of students without
identifying themselves on the FAFSA, controlling student PIN accounts, and receiving electronic
correspondence from FSA that is intended for the student.

For these 435 applicants,14 the OIG suggests that FSA require the students to change their PINs
and reaffirm their agreements not to share their PINs with anyone, as well as verify the contact
information in both the PIN system and the current year FAFSA with the student. The OIG also

13
   The OIG did not obtain student records maintained by the preparer organizations and therefore did not confirm
whether students paid the preparer organizations. The OIG also did not determine if the preparer organization
established the PIN or if the student provided their PIN to the preparer organization, which then changed the PIN to
the last four digits of the student’s SSN.
14
   The OIG will provide the list of students to FSA upon request.
Final Management Information Report
ED-OIG/X21L0002                                                                P a g e | 10

suggests FSA consider controls that would ensure preparers are identifying themselves on the
FAFSA.

To reduce the temptation for students to share their PIN with preparers, the OIG suggests FSA
consider creating preparer-specific access accounts that would allow a student to authorize a
preparer to access and modify certain sections of the FAFSA. FSA could set permissions that
would prevent preparer-specific accounts from viewing or changing the student’s sensitive
personal information, email address, or postal address; signing the FAFSA for the student/parent;
or submitting the FAFSA. If FSA created this type of account, it could also be used to
automatically link a preparer’s SSN or EIN to the submitted FAFSA. FSA could also present
students a message, prior to students granting the preparer access to their FAFSA, reminding
them that free assistance is available for completing and submitting a FAFSA. This may
encourage some students to seek the free assistance rather than paying a company to assist them.

FSA Response
FSA did not agree with the OIG’s suggestion and asserted that allowing third parties limited
access to an applicant’s file/data would compromise the integrity of the student aid application
process and be contrary to the intent of the HEA. According to FSA, the extensive “smart-logic”
of the FAFSA on the Web product maintains the applicant’s control of their personal data and
FAFSA submissions, and MyStudentData Download provides sufficient third party access
needed for counseling and other advisory activities.

OIG Response
Our work has demonstrated that many students have disregarded the prohibition on sharing PINs
and have provided third parties full access to their accounts, including access to their personal
data. We do not believe that MyStudentData Download will reduce this problem because it does
not provide data that assists third parties who help students complete their applications. In
addition, the OIG does not know how “smart logic,” in which FAFSA on the Web skips over
questions that do not apply to the student or prompts the student for customized follow-up
questions, will prevent a student who has already chosen to use a preparer from sharing their PIN
with the preparer or allowing the preparer to manage the student’s account. The OIG can
provide FSA with a list of preparer email addresses found in PIN and FAFSA applications to
further demonstrate the extent of the problem of third party access to student accounts. Indeed,
the OIG re-checked student PIN accounts on September 25, 2013, and preparer email addresses
were still listed on most accounts identified from our work.

                      OBJECTIVE, SCOPE, AND METHODOLOGY

The OIG recently investigated several cases of unauthorized access to personal information
contained in the PIN Registration System and the FAFSA Web site. The unauthorized users in
these cases were familiar with the student victim and included former spouses, estranged parents,
and step-parents. The OIG is also investigating a case where an unauthorized user locked a
victim’s PIN account by submitting three incorrect challenge answers, applied for a new PIN
using the victim’s personal information, and submitted a fraudulent FAFSA using the victim’s
personal identifiers.
Final Management Information Report
ED-OIG/X21L0002                                                                P a g e | 11

On January 31, 2011, the OIG started a proactive investigative project to identify behavior
associated with fraud rings and identified suspicious trends related to student PINs and FAFSA
preparers that occurred between academic years 2008-2009 and 2011-2012. The scope of this
proactive investigative project covered a limited dataset where we analyzed specific behavior for
potential referral to Investigation Services.

As a result of an investigation, the OIG researched Internet-based companies that obtain student
data by logging into FSA systems using the student’s PIN.

The OIG provided a draft of this report to FSA on August 27, 2013. FSA provided its response
to the draft report, which was dated September 16, 2013. We are including FSA’s response as an
attachment to this report.

We conducted our work in accordance with the Council of the Inspectors General on Integrity
and Efficiency Quality Standards for Inspection and Evaluation.

If you have any questions, please contact Mark A. Smith, Special Agent in Charge, Technology
Crimes Division, at (202) 245-7019.

cc:    Dawn Dawson, Audit Liaison for FSA
                        UNITED STATES DEPARTMENT OF EDUCATION
                                                Federal Student A id




MEMORANDUM

DATE: 	         September 16, 2013

TO: 	          Charles E. Coe, Jr.
               Assistant Inspector General
               Information Technology Audits and Computer Crime Investigations
               Office of Inspeclor General 	             ~

               James w. Runcie              ~<&~!
FROM: 	
               Chief Operating Officer      I    r'
                                                                       1M c-..{


SUBJECT: 	     Draft Management Information Report
               PrN Security Vulnerabilities
               Control No. ED-OIG/X2 I L0002 (12-110380)

Thank you for providing us with an opportunity to respond to the Office of Inspector General ' s
(O IG) draft Management Info rmation Report entitled , " PI N Security Vulnerabilities." Your
report states that OIG reviewed Federal Student Aid ' s (FSA) responses to the recommendations
in the 010 Investigative Program Advisory Report (IPAR) Distance Education Fraud Rings
(L42LOOO l) dated September 26, 2011 regardi ng the (Personal Ident ification Number) PIN
system and FSA's plans to replace the current PIN system.

We are pleased to have this opportunity to share the latest update on Ihi s project. FSA is in the
process ofre.engineering and replacing PIN with a new system, the Non·pri vi leged Access
System (N PAS ). NPAS provides an identity and access management so lution , based on
industry best practices, that is adaptable to a changing business environment, while enabl ing
improvements in security and customer usability. In additio n, consiste nt with OIG
recommcndations, thi s so lution will solve the problems your office identified and provide
additional securit y improvements.

The N PAS is part of the Enterprise Identity Management Solution (ELM S) ini tiative. The ElMS
objecti ve is to "make provision ing and access management for fS A systems more efficient and
secure for both privileged users (FSA and its partners) and non-privileged users
(studentslborrowers) through the implementation of enterprise Identity Li fecycle Management
processes and technologies." ELMS is an umbrella init iative \\lith several strategicall y related
projects focused on achieving the ElMS object ivc.

In order 10 effectively develop NPAS , FSA collected and conso lidated requirements from
vario us stakeholders, including OIG 's past recolllmendations. For the last year, FSA focused on
                                                  1

the planning, preparation and acquisition ofNPAS, including the procurcment for the services to
development and implement the new system.

The new system will provide authori zed FSA non-privileged external users a better and more
secure capability for accessing FSA systems and data that:

• 	 Does not require use of personal identification information (P II) during the login process and
    also provides these users the full range of identity and access management services, e.g.,
    accou nt creation; user provisioning and access; user se lf-care and othcr common capabi liti es;
    is able to effecti vely exchange data wi th other external and internal FSA systems for
    authentication and other purposes.
• 	 Is able to read il y support future functionality enhancements such as eSignature appliances;
    use of soft tokens, biometrics and other factors.
• 	 Incorporates the use of strong and proven access controls, encryption , sec ure transmissions,
    and other technology advances, so all users are provided end -to-end protection of data, from
    entry source; white traversing the internet or intranets; and wi thin data storage repositories.

Addi tionally, the new system wi ll also comply with the broader FSA Information Technology
standards, which require that the system:

• 	 Provide ev idence (e.g. , Nat ional Institute of Standards and Technology (N IST) certificate for
    the spec ific product and module) that the products it utili zes provide cryptographic
    protections using modules that comply with Federal Informat ion Processi ng Standards (FIPS)
    PUB 140-2 standards.
• 	 Comply with the controls for access management contained in the current versions and
    revisions of: NIST SP-800-53, Recommended Security Controls for Federal Information
    Systems and Organizations; and NIST-SP-800-53A , Guide for Assessing Security Controls
    in Federal Information Systellls and Organizations, Building Effective Security Assessment
    Plans.
• 	 Comply with the sec urity authorizat ion processes, as outlined in N ISTSpecial Pu blicat ion
    NIST-SP-800-37, entitled Guide for Applying the Risk Management Framework to Federal
    Information Systems: A Security Life Cycl e Approach, and supporting Office of Chief
    Information Officer (OClO) po licies, standards, and procedures. In accordance with the
    identified ri sk rating, the so lut ion shall sat isfy the appropri ate security controls as defined in
    FIPS 200 and NIST-SP 800-53, entitled " Recolllmended Securit y Contro ls for Federal
    Information Systems and Organizations."

As part of the planning process and as part of the PIN re-engineering, fi ve Technical Proofs of
Concept (TPOCs) were conducted as a cost effect ive means to test feasib ility and sca labi lity of
proposed architecture and functionality. The T POCs demonstrated that: ( 1) scaling up the
existing infrastructure for over 100 million users is viable; (2) fo rms based authen ticati on is
feasible fo r legacy systems; (3) Federated Identi ty Management can be implemented; (4)
integration with a commercial eS ignature appliance is possible and (5) it is feasible to seamlessly
integrate with legacy applications.


                                                    2

The current focus of the ElMS initiative is to complete the acquisition and finalize a contract for
PIN Re-engineering and Replacement by late September 2013. Once the award is made, the
vendor and the FSA Integrated Project Team will begin the re-engineering and replacement of
PIN with two to three months of requirements defini tion, refinement and validation.

The following responds to each of your specific recommendations.

OIG Recommendation

    I. Require PIN owners to (b)(7)(E)

FSA Res ponse

The new system wi ll require (b)(7)(E)


OIG Recommendation

   2. Provide (b)(7)(E)


FSA Response

As noted above, the new system includes (b)(7)(E)



We are sensitive to the fact that inquiri es regarding PINs, passwords and forgotten chal len ge
responses are typically among the highest trend ing questions at the Federal Student Aid
Information Center (FSAIC).

OIG Recommendation

   3. Notify PIN owners of (b)(7)(E)
                                In addition, ensure that (b)(7)(E)


FSA Response

(b)(7)(E)




                                                 3

O IG Reco mmend atio n

    4. (b)(7)(E)




FSA Res ponse
               (b)(7)(E)




(b)(7)(E)



D IG Reco mm end :ltion

    5. Research and consider (b)(7)(E)
                                                       when PfN and FAFSA accounts are
        initially established.

FSA Res ponse

FSA will rescarch and consider other options, such as those listed above.

In addition to the forma l recommendations, we will also address other suggest ions contained in
the draft report.

D IG Suggestio n

The OIG suggests that FSA consider developing a capabili ty to cnable studcnts to permit
companies providi ng loan-re lated services read-on ly access to relevant areas or their accounts
that do not contain sensitive personal informat ion.




                                                 4
FSA Response

FSA does not agree with the OIG ' s suggestion. In November 2012 and April 2013 , FSA
deployed " MySt udentData Download" functionality fo r the National Student Loan Data System
(NSLDS) and the FAFSA, respectively. These capabilities were deve loped in support of the
White House Office of Science and Technology Policy's initiative, which strives to make
education-related data available, machine-readable, and accessible whi le protecting the privacy
of the student's personal information. A goal of the initiative is to empower students to
electronically obtain, store, and if they so dec ide, to share their information with others while
safeguarding personally identifiable in for mation.

For NSLDS , the student can, with one sim ple acti on, download a simple text file that includes
the student 's Title IV loan and grant information (e.g. , award amounts, disbursement amounts
and dates). For FAFSA information, students are able to download their processed FAFSA data.

For both app licat ions, the student may choose to share the downloaded information with third
parties that provide assistance with various higher education decisions (e.g., how to pay for an
education, and how to manage debt if they use loans to fund their education.) Since the
information provided by the student to a third party is not direct ly from the FSA system that
maintains the data, the third party does not have access to those systems and cannot change or
update any of the in format ion. Those capabilities remain so lely wi th the student.

The file layouts for the FAFSA and NSLDS downloads are included in the e-annoullcement
below. The layouts/data elements were approved by Office of the General Counsel prior to
implementation.

http://ifap.ed.gov/eannouncements/ l1 I 3 12UpcomingMySIudeniDalaDownloadFuilciioil 13 14FO
TWDraftFileLavout.html

hIIP:I/ifap.ed.gov/eannolltlccments/08 1612M y DataButton LJ pcom ing l mplementat ion .hlml

In summary, FSA believes tbat there is no reason to allow any party, other than the student, to
bave direct access (read -onl y or otherwise) to the student' s FSA information. Any legitimate
objectives for the OIO recommendation are met by the "MyS tudentData Download"
functiona lit ies discussed above.

OIG Suggestion

The OIG suggests FSA consider creating preparer-spec ifi c access accounts that wou ld allow a
studenl to authorize a pre parer to access and modify certain sections of the FAFSA.

FSA Response

FSA does not agree wi th the O IG's suggestion. We believe such access to an applicant ' s
file/data \.vould comprom ise the integrity of the Title IV student aid application process. The

                                                 5

student andlor parent maintain complete accountability for the information reported and used to
determine eligibility for federal student aid.

In our opinion, it would be contrary to the intent of the Higher Education Act of 1965 (as
amended) if FSA provided this type of access to these third parties. It is the applicant that
submits the data for the FAFSA. The extensive "smart-logic" o[the FAFSA on the Web product
maintains the applicant ' s control of their personal data and FAFSA submissions.

Based on the capability provided through MySt udentData Download, described above, FSA
believes that there is sufficient access to the necessary information for counseling and other
advisory activities.

Thank yo u again for the opportunity to share our progress and respond to your recommendations
and suggestions.


cc: 	 Dawn Dawson, Audit Liaison Officer
      Linda Hall , Internal Review Officer
      Fred Anderson, Chief Risk Officer




                                                 6

